                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A12050032                                                                         Page 1 of 1



                 A former graduate student (Subject) 1 who conducted NSF-funded research2 at an Universit)?
         admitted that he fabricated and falsified data in a publication4 and his Ph.D. dissertation. 5 Based
         upon the admission, the University revoked the student's Ph.D. and requested the publication be
         retracted.

                  Based on our investigation, we concluded that the Subject intentionally fabricated and
         falsified data and that his actions constituted a significant departure from accepted practices of the
         relevant research community. NSF concurred with the recommendations in our Report of
         Investigation (ROI), and made a finding of research misconduct and debarred the Subject for a period
         of three years. In addition, NSF prohibited the Subject from participating as a peer reviewer, advisor,
         or consultant for the three year debarment period. For an additional three years post-debarment, the
         Subject is required to submit certifications and assurances as well as certifications of adherence to a
         data management plan. NSF also required that he complete a course in the responsible conduct of
         research and retract the publication. 6

                 This memo, the attached ROI and the letters from the Office of the Deputy Director on the
         notice of research misconduct determination with a proposed debarment and the final debarment
         notice constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
SENSITIVE'                                                                             SENSITIVE




       National Science Foundation
        Office of Inspector General




                 Report of Investigation
                Case Number A12050032
                             March 29, 2013


                        This Report of Investigation is provided to you
                                  FOR OFFICIAL [,~SE ONLY.
 It contains protected personal information, the unauthmized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. Tills repmt may be further
 disclosed within NSF onzv to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. Tills report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this report of investigation.

                                                                             NSF OIG Fmm 22b (1/13)
SENSITIVE                                                                            SENSITIVE



                                             Executive Summary


Allegation:   A former graduate student that conducted NSF-funded research at a university
              admitted that he intentionally fabricated and falsified data included in a
              publication and his Ph.D. thesis dissertation.

University
Actions:      Per its policy, the University did not conduct an inquiry or an investigation as the
              Subject admitted to the research misconduct. The University revoked the
              student's Ph.D. degree and dissertation and requested tqe publication be retracted.

OIG Investigation:
             Based on these circumstances, we interviewed the Subject and asked him to
             discuss his research misconduct admission and to provide additional information.
             The Subject took responsibility for the fabricated and falsified data.

OIG Assessment:
                  •   The Act: Subject fabricated and falsified data in one publication and his
                      Ph.D. thesis dissertation.
                  •   Intent: The Subject acted intentionally.
                  •   Standard of Proof: A preponderance of evidence supports a finding of
                      research misconduct.
                  •   Significant Departure: The Subject's actions represent a significant
                      departure from accepted practices.
                  •   Pattern: No pattern found.

OIG Recommends:
             • Make a finding of research misconduct.
             • Send a letter of reprimand.
             • Require certification of responsible conduct of research training within 1
                 year of NSF's finding.
             • Require certification of retraction within 1 year.
             • Debar the Subject from receiving Federal funds or participating in any
                 federally- funded project for a period of 3 years.
          Additionally for a period of 3 years immediately following the debarment period:
             • Bar the Subject from participating as a peer reviewer, advisor, or
                 consultant for NSF.
             • Require certifications and assurances.
             • Require submission of detailed data management plan with annual
                 certifications of adherence.
SENSITIVE                                                                                 SENSITIVE


                                              OIG's Inquiry

       The University 1 provided us with a signed document 2 from a fanner Graduate Student
(Subject) 3 who conducted NSF funded research 4 at the University. In the document, the Subject
admitted that "[t]wo experiments are invalid" in a 2008 joumal publication (Article 1) 5 and the
Subject's Ph.D. thesis dissertation. 6

         Article 1 acknowledged that a NSF award (Award 1) 7 and another source 8 provided
support for the research. Article 1 was listed under "Publications" in several NSF progress and
final reports for Award 1 and another NSF award (Award 2). 9 Specifically, we noted its
                                                                   12
mention in the third Annual, 10 fourth Annual 11 and Final reports of Award 1 and in the Final
report 13 of Award 2. Article 1 was also listed as one of five significant publications on the
biographical sketch of the Subject's Ph.D. thesis advisor (PI) 14 in a declined proposal 15 and on
the Subject's biographical sketch in two declined proposals. 16

             In the signed admission,

             1. The Subject stated that for Article 1, "On page 9629, Table 1, entries #6 and #8 have
                been inappropriately manipulated. The data in the table does not reflect results of the
                experiment listed. These are the same experiments as entries 10 and 12 of Table SI-
                lin the supporting information page S6. This affects the [second] paragraph, first and
                second sentences, on page [9629], which is no longer supported by data". The data in



2
    Tab 1.
3




                                                     2
SENSITIVE                                                                                   SENSITIVE


                  the table refers to the melting range of DNA hybrid structures 17 upon varying the
                  concentration and NaCHevels. The data manipulation alters the conclusions
                  regarding optimal aggregate formation upon condition variation.

             2. The Subject stated that "a gel image" in Article 1 and his Ph.D. thesis dissertation
                was also "altered". Specifically, he provided the unmodified gel images of varying
                intensities to exemplify the range of infonnation for an "idealized image" in the
                experiment to be displayed in Article 1 and his Ph.D. thesis dissertation. The
                alteration of the gel image changes the conclusion regarding the fmmation of DNA
                hybrid structures in dilute versus concentrated solutions.

        The "inappropriately manipulated" data appeared in both Article 1 and his Ph.D. thesis
dissertation. We also found that some of the data was included in the third and fourth Annual
Reports 18 for Award I and in the Final Annual Report for Award 2. The Table below indicates
where the experiments and data in Article 1 appear elsewhere in documents to which the Subject
has contributed.


                          Article 1         Ph.D. thesis        Award 1,       Award 1,      Award 2,
                                            dissertation       3rdAnnual      4thAnnual        Final
                                                                 Report         Report        Report
           Data       Entries #6 and #8   Entries #6 and #8
                      onpg 9629,          on pg 75, Table
                      Table 1             3.1
"'=It""'   Data       Entries # 10 and    Entries # 10 and
-+-
  =
  Q)                  #12 on pg S6,       #12 on pg 106,
  s
.......
  ~
                      Table SI-1          Table 3.3
  Q)
  ~
           Text       1st and 2nd         1st and 2nd         6th and 7th    6th and 7th
  ~                   sentences in 2nd    sentences in        sentences in   sentences in
~
                      paragraph on pg     paragraph 3.2.2.3   first          first
                      9629                onpg 76             paragraph      paragraph
                                                              onpg 68        on pg 72

           Figure     Figure 1 on pg      Figure 3.5 on pg.                                  Figure 2
N
=It                   9628 and Figure     76                                                 onpg9
 -+-
 =Q)
                      SI-2 onpg S6
 s
·c         Text       3rd sentence of     3rd sentence in
  Q)
  ~
                      2nd paragraph on    paragraph 3.2.2.3
  ~                   pg 9629             on pg 76
~




17
18
      Tabs 6 and 7.

                                                       3
SENSITIVE                                                                                           SENSITIVE


                                           University's Review

        The University's Office for Research Integrity (UORI) 19 provided us with a letter 20
summarizing the chronology of the Subject's admission and subsequent University's actions.
The Subject left the University in 2008 after completing his Ph.D. studies. It was not until2010
that the PI became aware of the potential misconduct when a postdoctoral research fellow could
not replicate the Subject's results listed in Article 1. The PI and postdoctoral fellow 21 reviewed
the Subject's original data files from the computer that controlled the UV-Vis spectrophotometer
and found several inconsistencies:

       •     "measurements taken at regular temperature intervals ... rather than the random
             temperatures that were consistent with [the] instrument heating and holding the
             temperature at regular time points",
       •     "several experiments within short time frames ... which is not possible because
             normal experiments would [have] taken several hours to run", and
       •     "data files appeared to have multiple dates or multiple sets of data embedded in one
             file" ... in which the PI "realized that the UV -vis instrument appended time/notation
             tags from the original data files whenever changes were made or if files were
             exported and then reimported; in essence, saving the record of the modifications." 22

        The PI conducted analyses 23 in which he annotated several raw data files 24 and identified
discrepancies (such as too few decimal places) in data recordings by the Subject. The analyses
also included the PI's attempt to simulate the method of data fabrication by using the UV-Vis
instrument in order to illustrate what the manipulated data would look like.

        Subsequently, the PI notified the UORI to discuss his concerns and to discuss the
University's research misconduct process. However, the PI contacted the Subject to allow him
to provide an explanation. When the PI expressed concerns about the integrity of the research
data, the Subject admitted to manipulating data and later provided the written admission to the
UORI. Due to the Subject's admission and per University Policl 5 and Procedures 26 , the
University concluded 27 that, it did not need to convene an inquiry or investigation committee:



           • • • •, Director ofthe Office of Research Integrity and Research Integrity Officer at



                                                   to us.


                 docum,ents and files from                         Office for Research Integrity.
                                     Policy for Reviewing Alleged Research Misconduct.
                                     Procedures for Reviewing Alleged Research Misconduct.
                                    • • • • Director of the Office of Research Integrity to the Vice President


                                                       4
SENSITIVE                                                                                   SENSITIVE




        Consequently, the University accepted the Subject's admission and proceeded with a
disciplinary review process through the Graduate School to determine what additional sanctions
were appropriate. Based on their review, the University determined that the Subject
"[ c]ommitting research misconduct is a serious offense" 29 and the University formally revoked
the Subject's degree and published dissertation. Furthennore, the University requested that the
Subject and the PI start the process of retracting Article 1. Additional communication 30 with the
Director ofUORI revealed that the University rejected the Subject's appeal of the Provost's
decision and the Subject's request for a master's degree.



                                           OIG Investigation

        We contacted the Subject regarding the signed admission and requested an interview.
During our interview, 31 the Subject admitted that he manipulated the data specified in his signed
admission and asserted that he had not manipulated or altered data in other sections of his Ph.D.
thesis or in any other publications from the PI's lab.

         Specifically, we asked him to elaborate on his signed admission regarding entries #6 and
#8. Explicitly, the Subject stated "I believe Entry 7 is the one that is accurate" 32 and "there was
[a] previous curve that was also accurate. I had taken the other accurate curve that wasn't
published, [and] presented it as either [entry #] 6 or 8". 33 After describing the experimental
details, the Subject admitted he manipulated the data for entries #6 and #8 so it would represent
results he had obtained previously and represent the expected result. Specifically he stated:

        "[W]e were looking to see ... a sharp melting transition, and that I had seen a couple of
times. But most of the times ... I would not see it", 34
        "[A]t some point, I took one of the ones that actually worked the way we wanted it to and
said that it was also two other instances", 35

28
     Tab 18, pg 5.




-
29
     Tab 21: Letter from                     Provost to the Subject,
30
     Tab 22: Email from                      Director of the Office of Research Integrity
31
   Tab   23: Transcribed • • • • • • interview of Subject.
32
   Tab   23, pg 3, lines 10-11.
33
   Tab   23, pg 3, lines 13-15.
34
   Tab   23, pg 4, lines 16-18.
35
   Tab   23, pg 4, lines 20-22.

                                                     5
SENSITIVE                                                                              SENSITIVE


        "So I took the raw data and subtracted a few degrees from it so that it looked like it
melted a few degrees lower than it had", 36 and
        "It was replicating something that was accurate once and altering it slightly so it looked
like two different instances." 37

        Regarding the electronic file dates, the Subject specifically stated the time stamps on the
files were "a little fishy" 38 due to his changing the values (of the temperature measurements) and
re-importation of the files. The Subject indicated that the PI noted the date changes and shorter
decimal points in the temperature measurement recordings as the PI "could tell that the decimal
places didn't look like the original decimal places" 39 obtained in the experiments.

        The Subject admitted that temperature data manipulations occurred "towards the very end
                                                                                41
... within the last year" 40 of his research and "probably ... summer of2007" due to
"[f]rustration, desperation" 42 in working with unstable material. The Subject proclaimed that he
"couldn't convince [his] boss that it was actually unstable" 43 and wanted "to just move on to
something else". 44 Furthermore, he stated that his data manipulations to obtain entries #6 and #8
were "intentional falsification" 45 and when asked, he affirmed that his manipulations changed
the conclusion in Article 1 for that "the average number of cooperative duplexes is calculated to
be 2.97''. 46

        For the native PAGE gel in Figure 1 of Article 1, the Subject disclosed that the original
                                                                                 47
data included in his signed admission "doesn't show ... Band 1 as being clear" since for
Article 1 he "cut a picture that [he] had taken" and "adjusted the band height" 49 . . . "so it
                                                48

looked more clear". 50 When asked, 51 the Subject affirmed that his manipulation did not "altered
the conclusion" 52 but instead, the "evidence for the conclusion". 53



36
   Tab 23, pg 4, lines 24-26.
37
   Tab 23, pg 5, lines 6-8.
38
   Tab 23, pg 53, line 4.
39
   Tab 23, pg 55, lines 21-22.
40
   Tab 23, pg 11, lines 4-5.
41
   Tab 23, pg 11, lines 7-8.
42
   Tab 23, pg 11, line 15.
43
   Tab 23, pg 12, line 14-15.
44
   Tab 23, pg 12, lines 19-20.
45
   Tab 23, pg 18, line 5.
46
   Tab 23, pg 18, lines 21-22.
47
   Tab 23, pg 15, lines 1-2.
48
   Tab 23, pg 15, lines 4-5.
49
   Tab 23, pg 15, line 7.
50
   Tab 23, pg 15, line 9.
51
   Tab 23, pgs 16-17.
52
   Tab 23, pg 16, line 23.
53
   Tab 23, pg 17, line 3.

                                                  6
SENSITIVE                                                                              SENSITIVE


        Regarding the data manipulation in Article 1· and his Ph.D. thesis dissertation, the Subject
indicated his reason was "to be done with that experiment" 54 as he "didn't think [the] materials
were very stable" 55 and he was having trouble creating reproducible results. The Subject
informed the incoming post-doctoral fellow 56 regarding the instability of the materials, who then
"refused to work on them". 57 Furthennore, the Subject stated that "having the grant added to
part of the pressure ... can we continue to get funding on the same grant, or will it just be
dropped because we're not being successful?" 58

      The Subject admitted "[I] felt so terrible about what I had done, but I wasn't really able to
come forward on my own, because I was too scared of the consequences" 59 and "it was
somewhat a relief ... to at least get the dishonesty out" 60 to the PI.

        Since the University revoked the Subject's degree and published dissertation, the Subject
was hopeful that the University would have considered his request to resubmit his thesis, with
the omission of Chapter 3 which pertained to Article 1, for a master's degree. The Subject stated
he has been in contact with the PI to start the process of retracting Article 1. Towards the
conclusion of the interview, the Subject admitted he "felt sick" 61 about the data fabrication and
"it was a desperate move" 62 as he did not think others would try to repeat his experiments.



                                        OIG's Assessment

       We assessed the University's actions and concluded that the University followed
reasonable procedures in accordance with their policies. 63

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a
                                64
preponderance of the evidence.




57
   Tab 23, pg 32, line 21.
58
   Tab 23, pg 36, lines 6-9.
59
   Tab 23, pg 41, lines 15-17.
60
   Tab 23, pg 42, lines 1-2.
61
   Tab 23, pg 49, line 5.
62
   Tab 23, pg 49, lines 6-7.
63
   Tab 18: • • • • • • • • • Policy for Reviewing Alleged Research Misconduct.
64
   45 C.F.R. § 689.2(c).

                                                 7
SENSITIVE                                                                               SENSITIVE



                                                        The Acts

            Specifically, the Subject admitted that he:

       1. Fabricated the melting data for DNA hybrid structures in Article 1 and his Ph.D. thesis
          dissertation by manufacturing data for entries #6 and #8 in Table 1 of Article 1 and
          entries #10 and #12 in Table SI-1 of Article 1. This identical data was also included in
          the Subject's Ph.D. dissertation as entries #6 and #8 in Table 3.1 and entries #10 and #12
          in Table 3.3.

       2. Falsified the digital image of a native PAGE gel containing DNA hybrid structures in
          Figure 1 and Figure SI-2 of Article 1 and Figure 3.5 of his Ph.D. thesis disse1iation. For
          lane 1, which represented DNA hybrid structures 65 formed in dilute solution, he adjusted
          the band height.

                                                         Intent

       The Subject acknowledged that his actions were "intentional fabrication". 66 In addition,
the Subject acknowledged he fabricated and falsified results of his experiments and data that
were concurrently included in Article 1 and his Ph.D. thesis dissertation. His actions and
admissions indicate he decided to fabricate and falsify the data as he had difficulty obtaining
repeatable results and wanted to produce the expected results to fit the hypothesis in order to
move on to other experiments as he was completing his Ph.D. thesis.

        In Table 1 of Article 1 (and Table 3.1 of his Ph.D. thesis), the data for entries #6 through
#8 (or #10 through #12 in Table SI-1 of Article 1 and in Table 3.3 of his Ph.D. thesis) refer to the
melting range of DNA hybrid structures 67 upon varying the NaCl concentration levels. The
Subject's fabrication was further perpetuated because entries #6 and #8 (or #10 and #12) were
used to calculate 68 the number of cooperative duplexes for the DNA hybrid structures. This
resulted in an erroneous, but desired, conclusion that the average number of cooperative
duplexes was calculated to be 2.97 (the average of 2.90, 2.68 and 3.33 for entries #6, 7 and 8,
respectively).

        In the signed admission, the Subject included three different intensity images ofthe same
native PAGE gel in order to better visualize the DNA hybrid structures that were loaded into the
lanes of the gel at various concentrations. The experiment was done to determine the
concentrations for the samples to be used in the native PAGE gel presented in Figure 1 and
Figure SI-2 of Article 1 and Figure 3.5 of his Ph.D. thesis dissertation. For lane 1, which


6
65·······
67········
68
     Tab 23, pg 18, line 5.

     Equation and calculated values located at Tab 4:

                                                           8
SENSITIVE                                                                            SENSITIVE


represented DNA hybrid structures 69 formed in dilute solution, he intentionally adjusted the band
height to falsely represent the DNA hybrid structures 70 at a higher desired molecular weight.
The alteration in the gel image altered the conclusion pertaining to the fonnation of DNA hybrid
structures in dilute versus concentrated solutions.

                                        Standard o(Proo(

        Based on his own admission and documented evidence, the Subject fabricated and
falsified data. OIG concludes that the Subject is found, by a preponderance of evidence, to have
intentionally fabricated and falsified data and materials, thereby committing an act of research
misconduct. 71



                               OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: (1) How serious the misconduct was; (2) The degree to which the misconduct was
knowing, intentional, or reckless; (3) Whether it was an isolated event or part of a pattern;
(4) Whether it had a significant impact on the research record, research subjects, other
researchers, institutions or the public welfare; and (5) Other relevant circumstances. 72

                                           Seriousness

       The Subject's actions are severe violation of the standards of research ethics. The
Subject's intentional fabricated and falsified data were included in a published manuscript and
his Ph.D. thesis dissertation. The Subject's actions adversely affected his immediate research
community as other researchers spent time, effort and resources trying to repeat the Subject's
experiments.

                                        Degree o[Jntent

        We found no evidence to mitigate our conclusion that the Subject intentionally fabricated
and falsified data. His actions and admission indicate he fabricated and falsified his data to
deceive the PI and finish the studies for his Ph.D. thesis.




69
70
71
     45 C.F.R. part 689.
72
     45 C.F.R. § 689.3(b).

                                                9
SENSITIVE                                                                               SENSITIVE


        The professional society 73 which produces the joumal 74 that published Article 1
maintains a set of guidelines for the publication of research, these guidelines include the ethical
obligations of authors such as:




        The Subject intentionally deceived the journal and the reviewers who reviewed Article 1
by not providing an accurate account of the research performed and by manipulating images,
both of which adversely affected the research conclusions. The Subject co-authored three other
publications 77 in the same journal (in addition to Article 1) and submitted 14 poster presentations
at the professional society's annual national meetings.

        The Subject's actions were an intentional violation of the research community principles
and values. As a graduate student, he violated basic expectations of academic behavior when
conducting research. Universities assume their research community (faculty, students and staff)
will adhere to the scholarly expectations of accuracy, validity and integrity in research. The
Subject's actions are an affront to the academic community and indicate a failure in carrying out
the expected responsibilities in sustaining professional honesty and integrity. Only after the
post-doctoral researcher and the PI analyzed the questionable data did the Subject admit to the
data fabrication and falsification in early 2012.

                                             Pattern o(Behavior

        The Subject asserted that he did not manipulate data in other sections of his Ph.D. thesis
or in any other publications in the PI's lab. The PI's analyses of the Subject's data records did
not reveal other manipulations which affected additional experiments. We therefore do not find a
pattern of fabrication and falsification.

73
74
   Journal of the
75
   Tab 2 4 : . Ethical Guidelines                                        pg2.
76
   Tab 24, pg 4.
77
   Tab 25: · · · · · · · · · - P u b l i c a t i o n history of Subject.

                                                        10
SENSITIVE                                                                                           SENSITIVE



                                        Impact on the Research Record

         The falsified and fabricated data that was included in Article 1 had an impact in the
literature as Article 1 has been cited 78 13 times, 8 of which are from research groups that do not
have a discernible affiliation with the PI's laboratory.

                                                Other Concerns

        During the interview, the Subject indicated 79 that he had no formal training in the
responsible conduct of research (RCR). The Subject was a graduate student at the University
from 2002 until2008 whereas the NSF's RCR requirements 80 for institutions applied only to
NSF proposals that were submitted or due on or after 114110. A discussion with the UORI
Director 81 confirmed that the Subject had not participated in any RCR training. The Subject
served as the Graduate Student Mentor for a total of three undergraduates in 2006 and 2007 who
participated in the Research Experiences for Undergraduate (REU) summer program funded by
Award 1 and one of the summer undergraduates continued participation in the research program
during the academic year. In the Subject's curriculum vitae 82 attached to his Ph.D. thesis, he
listed four additional summer undergraduates that he mentored in addition to serving as a tutor
and/or teaching assistant in organic chemistry lab courses. Although the Subject had not
participated in RCR training, honest representation of data is a basic tenet of all those who
conduct scientific research.

                                         Subject's Response to Draft Report

         In the Subject's response 83 to our draft investigation report, 84 he provided comments that
·clarified the degree of fabrication in the native PAGE gel in Article 1 and his Ph.D. thesis
 dissertation. He indicated that for the native PAGE gel, "[E]ach lane" was of "its original
 intensity" and the "falsification [was] limited to a shifted band-height of lane 1" as "the height of
 the band in lane 1 did not support [their] conclusion" for that experiment. We altered our report
 to more accurately reflect the subject's actions.




78
   Tab 26:                    database- Publications that cite Article 1.
79
   Tab 23, pgs 37-38.
80
   Part II, Award and Administration Guide, Chapter IV Grantee Standards. B. Responsible Conduct of Research
and NSF 11-1, Part I Grant Proposal Guide, Chapter II Proposal Preparation Instructions, Part C. Proposal Contents,



81·······
1.e. Proposal Certifications.
82
83
84
     Tab 5, pgs 153-155.
     Tab 27: Response from Subject • • •
     Tab 28: Letter to Subject with Draft ROI

                                                        11
SENSITIVE                                                                                 SENSITIVE




                                                Recommendations

Based on the evidence, OIG recommends NSF to take the following actions:

                  •    Send the Subject a letter of reprimand notifying him that NSF has made a
                       finding of research misconduct. 85

                  •    Require the Subject to certify to the Assistant Inspector General for
                       Investigations (AlGI) his completion of a responsible conduct of research
                       training program and provide documentation of the program's content within
                       1 year of NSF's finding. 86 The instruction should be in an interactive fonnat
                       (e.g., an instructor-led course) and specifically include data fabrication and
                       falsification.

                  •    Require the Subject to certify to the AlGI within 1 year of NSF's finding that
                       he has notified the affected journal of the research misconduct finding and the
                       state of the retraction of the published work conducted at the University. 87

                  •    Debar the Subject for 3 years. 88

For a period of three years immediately following the debarment period:

                  •    Bar the Subject from participating as a peer reviewer, advisor, or consultant
                       forNSF. 89

                   •   Require for each document (proposal, report, etc.) to which the Subject
                       contributes for submission to NSF (directly or through an institution),
                           o the Subject to submit a contemporaneous certification to the AlGI that
                              the document does not contain plagiarism, falsification, or
                              fabrication. 90
                           o the Subject to submit a contemporaneous assurance from a responsible
                              official of his employer to the AlGI that the document does not contain
                              plagiarism, falsification, or fabrication. 91




85
   A Group I action 45 C.F.R. 689.3(a)(l)(i).
86
   This action is similar to Group I actions 45 C.F.R. 689.3(a)(l ).
87
   This action is similar to a Group II action 45 C.F.R. 689.3(a)(2)(iii).
88
   A Group III action 45 C.F.R. 689.3(a)(3)(iii).
89
   A Group III action 45 C.F.R. 689.3(a)(3)(ii).
90
   This action is similar to 45 C.F.R. 689.3(a)(l)(iii).
91
   A Group I action 45 C.F.R. 689.3(a)(l)(iii).

                                                            12
SENSITIVE                                                                                 SENSITIVE



                     •   Require the Subject to submit to the AlGI for each NSF proposal a detailed
                         data management plan including requirements for notebooks and data
                         archiving to be adhered to during the course of any resulting award, and to
                         provide annual certifications that this plan is being implemented. 92




92
     This action is similar to a Group II action 45 C.F.R. 689.3(a)(2)(ii).

                                                              13
                                       NATiONAL SCIENCE FOUNDATION
                                            4201 WILSON BOULEVARD
                                           ARLINGTON. VIRGINIA 22230




                                                                                                     1013
       OFFICE OF THE
      DEPUTY DIRECTOR



  CERTIFIED MAIL ~~RETURN RECEIPT REQUESTED




           Re: Notice of Proposed Debarment and Notice of Researclt Misconduct Determination

  Dear-:

  As a graduate student                   University ("University"), you fabricated and falsified
  data that was included in your Ph.D. thesis dissertation and a publication which acknowledged
  support by the National Science Foundation ("NSF"). This research misconduct is documented
  in the attached investigative report prepared by NSF's Office oflnspector General {"OIG").

  In light of your misconduct, this letter serves as formal notice that NSF is proposing to debar you
  from directly or indirectly obtaining the bene.fits of Federal grants for three years. During your
  period of debarment, you will be precluded from receiving Federal financial and non-financial
  assistance and benefits under non-procurement Federal programs and activities. ln addition, you
  will be prohibited from receiving any Federal contracts or approved subcontracts under the
  Federal Acquisition Regulations (''FAR"). Lastly, during your debannent period, you will be
  barred from having supervisory responsibility, primary management, substantive control over, or
  critical influence on, a grant, contract, or cooperative agreement with any agency of the
  Executive Branch of the Federal Government.

     In addition to proposing your debarment, I am prohibiting you from serving as an NSF reviewer,
     advisor, or consultant to NSF until             , 2016. Furthermore, for three years from the
     expiration of your debarment period, I am requiring that you submit certifications, and that a
     responsible official of your employer submit assurances, that any proposals or reports you submit
     to NSF do not contain plagiarized, falsified, or fabricated materiaL In addition, for three years
     from the expiration of your debarment period, you are required to submit a detailed data
     management plan for any proposal submitted to NSF. Moreover, by                     ,2014, you must
     certify the completion a comprehensive responsible conduct of research training course, and
     provide documentation of the program's content. Finally, by                ,2014, you are required
     to certify that you have notified the journal that published your article of the research misconduct
· · ·finding andthe··statc··oftheretractionofthe published.research :worl<; 9911Q~9!t!<}a~.tll~.lJI_liyeE~i~X:
                                                                                               Page2
 Research Misconduct and Sanctions other than Debarment

· Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
  plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1(a). NSF
  defines "fabrication" as "making up data or results and recording or reporting them." 45 CFR
  § 689.l(a)(l). NSF defines "falsification" as "manipulating research materials, equipment, or
  processes, or changing or omitting data or results such that the research is not accurately
  represented in the research record." 45 CFR § 689.1(a)(2). A finding of research misconduct
  requires that:

         (1) There be a significant departure from accepted practices of the relevant research
             community; and
         (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
             and
         (3) The allegation be proven by a preponderance of evidence.

 45 CFR § 689.2(c).

 Yoilr admission of data manipulation permits me to conclude that your actions meet the
 applicable definitions of falsification and fabrication, as set forth in NSF's regulations.

 Pursuant to NSF's regulations, the Foundation must also determine whether to make a finding of
 research misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
 reviewing the Investigative Report and your admission of data falsification and fabrication, NSF
 has determined that, based on a preponderance of the evidence, your falsification and fabrication
 of data and materials was committed intentionally and constituted a significant departure from
 accepted practices of the relevant research community. I am, therefore, issuing a finding of
 research misconduct against you.

 NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
 response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include issuing a letter
 of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
 that an institution or individual obtain special prior approval of particular activities from NSF;
 and requiring that an institutional representative certify as to the accuracy of reports or
 certifications of compliance with particular requirements. 45 CFR §689.3(a)(l). Group II
 actions include award suspension or restrictions on designated activities or expenditures;
 requiring special reviews of requests for funding; and requiring correction to the research record.
 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of awards;
 prohibitions on participation as NSF reviewers, advisors oi consultants; and debarment or
 suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

 In determining the severity of the sanction to impose for research misconduct, I have considered
 the seriousness of the misconduct; our determination that it was committed intentionally; the fact
                                                                                             Page 3
that the misconduct had impact on the research record with it being published in a scientific
journal and being cited by other researchers; and the fact that your misconduct was an isolated
incident. I have also considered other relevant circumstances, such as the fact that you had taken
responsibility for the fabricated and falsi[led data and subrnitted a written admission to the
University. See 45 CPR§ 689.3(b).

Based on the foregoing, I am imposing the following actions on you:

   •    For three years from the end of your debarment period, you are required to submit
        certifications that any proposals or reports you submit to NSF do not contain plagiarized,
        falsified, or fabricated material.

   •    For three years from the end of your debarment period, you are required to submit
        assurances by a responsible official of your employer that any proposals or reports you
        submit to NSF do not contain plagiarized, falsified, or fabricated material.

    ~   For three years from the end of your debarment period, you are required to include a
        detailed management plan with each NSF proposal you submit. The plan must include
        requirements for notebooks and data archiving to be adhered to during the course of any
        resulting award.

    •   From the date of this letter through           , 2016, you are prohibited from serving as
        an NSF reviewer, advisor, or consultant.

    •   You are required to complete a comprehensive responsible conduct of research training
        course by            ,2014, and provide documentation of the program's content. The
        instruction should be in an interactive format (e.g., an instructor-led course, workshop,
        etc.) and should include a discussion of data falsification and fabrication.

    •   By            , 2014, you are required to provide certification that you have notified the
        affected journal of the research misconduct fmding and the state of the retraction of the
        published work conducted at the University.

All certifications; assurances, and training documentation should be submitted in writing to
NSF's Office of Inspector General, Associate Inspector General for Investigations, 4201 Wilson
Boulevard, Arlington, Virginia 22230.
                                                                                            Page4
Debarment

Regulatory Basis for Debarment

Pursuant to 2 CPR§ 180.800, debarment may be imposed for:

        (b)    Violation of the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -

               (1)     A willful failure to perform in accordance with the terms of one or more
                       public agreements or transactions;


               (3)     A willful violation of a statutory or regulatory provision or requirement
                       applicable to a public agreement or transaction; or

        (d)    Any other cause of so serious or compelling a nature that it affects your present
               responsibility.

In any debarment action, the government must establish the cause for debarment by a
preponderance ofthe evidence. 2 CPR§ 180.850. In this case, you intentionally fabricated and
falsified data that was included in your Ph.D. dissertation and a publication which acknowledged
NSF support. Thus, your action supports a cause for debarment under 2 CPR§§ 180.800(b) and
(d).


Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR § 180.865. Having considered the seriousness ofyour
actions, as well as the relevant aggravating and mitigating factors set forth in 2 CFR § 180.860,
we are proposing your debarment for three years.

Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment
                                                                                                     i:-:
Appeal Procedures for Finding of Research Misconduct                                                 l
Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
fmding, in writing, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any appeal should
be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become final. For your information, we are
attaching a copy of the applicable regulations.
                                                                                          Page 5
Procedures Governing Proposed Debarment

The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in oppos]tion to
this dcbannent. 2 CFR § 180.820. Comments submitted within the 30-day period will receive
full consideration and may lead to a revision of the recommended disposition. If NSF does not
receive a response to this notice within the 30-day period, this debarment \<\-ill become final.
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your infonnation, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and f<AR Subpart 9.4.

Should you have any questions about the foregoing, please c o n t a c t - ' Assistant
General Counsel, at (703) 292....           .                        .



                                                    Sincerely,




                                                    Fae Korsmo
                                                    Senior Advisor



Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR
                                                                          --
VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




       Re: Notice ofDebarment


Dear-:

On            ,2013, the National Science Foundation ("NSF") issued to you a Notice of
Proposed Debarment and Notice of Research Misconduct Determination ("Notice"), in which
NSF proposed to debar you from directly or indirectly obtaining the benefits of Federal grants
for a period of three years. As reflected in the Notice, NSF proposed your debarment because, as
a graduate student at                University ("University"), you falsified and fabricated data
that was included in your             · dissertation and a publication which acknowledged
support by NSF. In that Notice, NSF provided you with thirty days to respond to the proposed
debarment

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred until           , 2016.

Debarment precludes you from receiving Federal financial and non-financial assistance and
benefits under non-procurement Federal programs and activities unless an agency head or
authorized designee makes a determination to grant an exception in accordance with 2 CFR
180.135. Non-procurement transactions include grants, cooperative agreements, scholarships,
fellowships, contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for
specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CFR Subpart 9.4 for the period of this debarment. 2
CFR 180.925. During the debarment period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contract, or
cooperative agreement with any agency of the Executive Branch of the Federal Government.
                                                                                             - 2 -
Lastly, please note that, in the Notice, NSF also took the following actions against you, which
continue to remain in effect:

   • · From the end of your debannent period through               ,2019, you are required to
       submit certifications to NSF's Office of Inspector General that any proposals or reports
       you submit to NSF do not contain plagiarized, falsified, or fabricated material.

    •   From the end of your debarment period through              , 2019, you are required to
        submit assurdllces by a responsible official of your employer that any proposals or reports
        you submit to NSF do not contain plagiadzed, falsified, or fabricated material.

    •   From the end of your debarment period through             , 2019, you are required to
        include a detailed management plan with each NSF proposal you submit. The plan must
        include requirements for notebooks and data archiving to be adhered to during the course
        of any resulting award.

    •   You are prohjbited from serving as an NSF reviewer, advisor, or consultant through
                  , 2016; and

    •   You are required to complete a comprehensive responsible conduct of research training
        course by           , 2014, and provide documentation of the program's content to the
        OIG. The instruction should be in an interactive format (e.g., an instructor-led course,
        workshop, etc.) and should include a discussion of data falsification and fabrication.

    •   By            , 2014, you are required to provide certification that you have notified the
        affected journal of the research misconduct finding and the state ofthe retraction of the
        published work conducted at the University.

All certifications, assurances, and training documentation should be submitted in writing to
NSF's OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
VA 22230.

Should you have any questions regarding the foregoing, please c o n t a c t - , Assistant
General Counsel, at (703) 292-8060.




                                                      Sincerely,

                                                    _____/}A 1.;;~·t' A/1!.,..-
                                                   C>#'-Y'Ftmn
                                                      Fae Korsmo
                                                      Senior Advisor
